Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     MEDICARE PART D
  RECONCILIATION PAYMENTS
                 FOR
          2006 AND 2007




                    Daniel R. Levinson
                     Inspector General

                     September 2009
                     OEI-02-08-00460
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
E X E C U T I V E                       S U           M M A R Y
Δ    E X E C U T I V E                                   S U M M A R Y


                   OBJECTIVE
                   1. To assess the reconciliation payments that Part D sponsors will owe
                      to or receive from Medicare for 2007.

                   2. To determine the status of the reconciliation payments for 2006 and
                      identify any outstanding issues.


                   BACKGROUND
                   The Medicare prescription drug program, known as Medicare Part D,
                   provides outpatient prescription drug coverage for beneficiaries who
                   choose to enroll in the program. The Centers for Medicare & Medicaid
                   Services (CMS) contracts with private insurance companies, known as
                   Part D sponsors, to provide this benefit. In 2007, 251 sponsors offered a
                   total of 4,407 plans.

                   CMS makes monthly prospective payments to sponsors for providing
                   prescription drug coverage to Medicare beneficiaries. These payments
                   are based on estimates that sponsors provide in their bids prior to the
                   beginning of the plan year. After the close of the plan year, CMS
                   reconciles these payments with the sponsors’ actual costs to determine
                   whether sponsors owe money to Medicare or Medicare owes money to
                   sponsors.

                   In October 2007, the Office of Inspector General (OIG) issued a report
                   on Part D reconciliation that found that sponsors owed Medicare an
                   estimated net total of $4.4 billion for 2006. These payments resulted
                   generally because sponsors overestimated the cost of providing the
                   benefit in their bids. However, as the report noted, 2006 was the first
                   year of the benefit and sponsors had limited information about drug
                   utilization and drug costs on which to base their bids. This study
                   follows up on the issues identified in the previous report.


                   FINDINGS
                   Sponsors owe a net total of $18 million to Medicare for the 2007
                   Part D payment reconciliation. For 2007, 61 percent of sponsors owe a
                   total of $1.81 billion to Medicare. The remaining 39 percent of sponsors
                   will receive money from Medicare, amounting to $1.79 billion.
                   Consequently, sponsors owe a net total of $18 million to Medicare,



 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   i
E X E C U T I V E                       S U           M M A R Y


                   which is significantly less than the net total of $4.4 billion that sponsors
                   owed for 2006.

                   For 2007, sponsors owe a net total of $600 million for risk sharing.
                   Specifically, 71 percent of the sponsors made unexpected profits large
                   enough to trigger risk sharing. These sponsors overestimated the cost
                   of providing the benefit in their bids. Sponsors will also receive a net
                   total of $406 million for the low-income cost-sharing subsidy and
                   $186 million for the reinsurance subsidy for 2007.
                   Sponsors continue to make large unexpected profits in addition to
                   the expected profits they included in their bids. The majority of
                   sponsors continue to make unexpected profits large enough to trigger
                   risk sharing. These unexpected profits are in addition to the expected
                   profits included in sponsors’ bids. Based on our calculations, these
                   179 sponsors made at least $1.02 billion in unexpected profits for 2007.
                   In addition, sponsors included an estimated net total of $1.07 billion of
                   expected profits in their bids. Expected profits are not subject to risk
                   sharing; therefore, sponsors keep all of these profits in addition to any
                   unexpected profits that they retain after risk sharing. These expected
                   profits may also offset any losses that sponsors have after risk sharing.
                   CMS collected almost all of the funds that sponsors owed to
                   Medicare for 2006. CMS collected a net total of $4.37 billion that
                   sponsors owed for 2006. Specifically, CMS collected most of the funds
                   that sponsors owed by decreasing their monthly prospective payments
                   for November and December 2007. CMS has not collected a total of
                   $14 million from five sponsors for 2006.

                   CMS reopened the 2006 payment reconciliation in December 2007. As a
                   result, Medicare owed sponsors a net total of $315 million and adjusted
                   their June 2008 monthly prospective payments accordingly. After CMS
                   completed the reopening, it announced that it considered the 2006
                   reconciliation closed. However, half of the 16 selected sponsors that we
                   received information from reported that they have requested or were
                   planning to request an additional reopening of the 2006 reconciliation.


                   RECOMMENDATIONS
                   Based on these findings, we recommend that CMS:

                   Ensure that sponsors’ bids accurately reflect the cost of providing
                   the benefit to Medicare beneficiaries. CMS should ensure that
                   sponsors’ bids more accurately reflect their costs of providing the benefit.

 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   ii
E X E C U T I V E                       S U           M M A R Y


                   CMS should use available data from prior plan years to assist in the
                   review of future bid submissions. CMS should also conduct additional
                   checks on bids in which the sponsors owed or received large amounts for
                   reconciliation.
                   Hold sponsors more accountable for inaccuracies in the bids.
                   As we recommended in a previous report, CMS should modify its bid
                   audit process to hold sponsors more accountable for material findings
                   identified in bid audits. Specifically, CMS could seek the authority to
                   impose sanctions against plan sponsors when bid audits have material
                   findings that meet a specified threshold regardless of the reason for the
                   material finding. CMS could also consider seeking the authority to
                   correct payments to plan sponsors at the end of the plan year.
                   Determine whether changes to the risk corridors are appropriate.
                   CMS should analyze all relevant data to determine whether it is
                   appropriate to seek legislative changes to the risk corridors and
                   risk-sharing percentages. The changes to risk sharing that begin with
                   the 2008 reconciliation will decrease the Federal Government’s share of
                   sponsors’ profits and increase the amount that sponsors retain.
                   Therefore, if sponsors continue to make large unexpected profits in 2008
                   and beyond, they will return a smaller percentage to the Federal
                   Government.
                   Determine whether alternative methodologies would better align
                   payments with sponsors’ costs for the low-income cost-sharing and
                   reinsurance subsidies. CMS should analyze all relevant data to
                   determine whether alternative methodologies to estimate and pay
                   sponsors for the low-income cost-sharing and reinsurance subsidies would
                   better align payments with costs. For instance, CMS should determine
                   whether requiring sponsors to base their bid estimates for reinsurance on
                   the number of beneficiaries who they anticipate will reach catastrophic
                   coverage would better align payments with costs for this subsidy.
                   Follow up with sponsors that still owe funds for 2006. CMS should
                   follow up with the three sponsors that owe funds for 2006 and are not in
                   receivership. CMS collected funds from the other sponsors by adjusting
                   their monthly prospective payments. If this is not possible for these
                   sponsors, CMS should seek alternative methods for collecting funds from
                   these sponsors.




 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   iii
E X E C U T I V E                       S U           M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred or agreed with three of our recommendations and did
                   not state whether it concurred with the other two recommendations. In
                   response to our first recommendation, CMS concurred and stated that it
                   has already incorporated plan-level experience in its current bid-desk
                   review.

                   In response to our second recommendation, CMS stated that it has the
                   authority to ensure Part D sponsors’ compliance with the operational
                   requirements of the Part D program. We encourage CMS to use its
                   current authority to hold sponsors more accountable for inaccuracies in
                   their bids. However, we note that CMS’s current authority may not
                   allow it to impose sanctions in all situations that lead to inaccuracies in
                   the bids. Further, we wish to clarify that as part of this
                   recommendation, CMS could consider seeking the authority to enable it
                   to correct payments to sponsors using methods other than adjusting
                   their bids and reconciliation. These corrections would most likely occur
                   at the end of the plan year and be coordinated with reconciliation.
                   In response to our third recommendation, CMS stated that it has
                   reviewed the statutory risk corridors and risk-sharing percentages and
                   does not believe that changes would be appropriate. Further, CMS
                   noted that it estimates that, because plans’ bids dropped significantly in
                   2008, the Government, on average, will owe plans for the 2008
                   reconciliation. We note that other factors affect risk-sharing payments,
                   such as drug costs and rebates. Therefore, we remain concerned that
                   sponsors may continue to make large profits in 2008 and beyond and
                   that the Government will share less of these profits under the current
                   risk corridors and risk-sharing percentages.

                   In response to our fourth recommendation, CMS agreed and stated that
                   it is currently evaluating changing the method for paying the
                   low-income cost-sharing subsidy. In response to our fifth
                   recommendation, CMS noted that it has since collected amounts owed
                   from all sponsors that are solvent. In response to other comments, we
                   made changes to the final report as appropriate.

                   We ask that in its final management decision, CMS more clearly
                   indicates whether it concurs with our second and third
                   recommendations and what steps, if any, it will take to implement
                   them.


 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   iv
Δ   T A B L E                      O F                 C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i



                  INTRODUCTION ........................................... 1



                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                             Sponsors owe a net total of $18 million to Medicare for the
                             2007 Part D payment reconciliation . . . . . . . . . . . . . . . . . . . . . . . 10

                             Sponsors continue to make large unexpected profits in addition
                             to the expected profits they included in their bids. . . . . . . . . . . . . 13

                             CMS collected almost all of the funds that sponsors owed to
                             Medicare for 2006 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                             Agency Comments and Office of Inspector General Response . . . 17


                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                             A: Standard Benefit for 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

                             B: 2008–2011 Statutorily Determined Risk Corridors . . . . . . . . . 21

                             C: Calculation of the Estimated Amount of Unexpected
                                Profits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                             D: Reconciliation Amounts Owed and Received in 2007,
                                Per Subsidy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                             E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29




OEI-02-08-00460         M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007              v
E X E C U T I V E                       S U           M M A R Y
Δ    I N T R O D U C T I O N


                   OBJECTIVE
                   1. To assess the reconciliation payments that Part D sponsors will owe
                      to or receive from Medicare for 2007.

                   2. To determine the status of the reconciliation payments for 2006 and
                      identify any outstanding issues.


                   BACKGROUND
                   The Medicare prescription drug program, known as Medicare Part D,
                   provides outpatient prescription drug coverage for beneficiaries who
                   choose to enroll in the program. 1 The Centers for Medicare & Medicaid
                   Services (CMS) contracts with private insurance companies, known as
                   Part D sponsors, to provide this benefit. Sponsors may offer stand-alone
                   prescription drug plans, or they may offer prescription drug coverage as
                   a part of managed care plans. In 2007, 251 sponsors offered a total of
                   4,407 plans.

                   CMS makes monthly prospective payments to sponsors for providing
                   prescription drug coverage to Medicare beneficiaries. These payments
                   are based on estimates that sponsors provide in their bids prior to the
                   beginning of the plan year. 2 After the close of the plan year, CMS
                   reconciles these payments with the sponsors’ actual costs to determine
                   whether sponsors owe money to Medicare or Medicare owes money to
                   sponsors.

                   In October 2007, the Office of Inspector General (OIG) issued a report
                   on Part D reconciliation that found that sponsors owed Medicare an
                   estimated net total of $4.4 billion for 2006. 3 These payments resulted
                   generally because sponsors overestimated the cost of providing the
                   benefit in their bids. However, as the report noted, 2006 was the first
                   year of the benefit and sponsors had limited information about drug
                   utilization and drug costs on which to base their bids. This study
                   follows up on the issues identified in the previous report. It assesses the
                   reconciliation payments that Part D sponsors will owe to or receive from



                     1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA),
                   P.L. No. 108-173.
                       2 A plan year runs from January 1 to December 31.
                       3 OIG, “Medicare Part D Sponsors: Estimated Reconciliation Amounts for 2006”
                   (OEI-02-07-00460).



 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   1
I N T R O D        U C T            I O N


                    Medicare for 2007. It also determines the status of the reconciliation
                    payments for 2006 and identifies any outstanding issues.
                    Part D Benefit
                    Part D sponsors are required by law to offer, at a minimum, a basic
                    prescription drug benefit that is either the standard prescription drug
                    benefit (described below) or is “actuarially equivalent” to the standard
                    benefit. 4 Most beneficiaries are responsible for certain costs, which may
                    include a monthly premium, an annual deductible, and coinsurance.
                    However, certain low-income beneficiaries are eligible to receive
                    assistance to pay some or all of these costs. The portion that is paid by
                    Medicare is referred to as the low-income cost-sharing subsidy. 5
                    In 2007, the standard drug benefit had a deductible of $265. 6 In the
                    initial phase of the Part D benefit, after the deductible is paid,
                    beneficiaries contribute 25-percent coinsurance toward their drug costs
                    and the plan pays the remaining 75 percent until combined beneficiary
                    and plan payments reach a total of $2,400. Beneficiaries then enter the
                    coverage gap phase of the benefit, in which they are responsible for
                    100 percent of their drug costs. The catastrophic coverage phase begins
                    when a beneficiary’s out-of-pocket costs reach $3,850. 7 From this point
                    on, beneficiaries contribute approximately 5 percent toward their drug
                    costs. 8 Of the remaining 95 percent of drug costs, the Part D sponsors
                    are responsible for 15 percent and Medicare pays 80 percent. The
                    amount paid by Medicare is referred to as the reinsurance subsidy. 9
                    See Appendix A for a chart of the standard benefit.
                    Plan Bids
                    Before the beginning of the plan year, sponsors are required to submit a
                    bid for each plan that they intend to offer. 10 Each sponsor submits a



                        4 42 U.S.C. § 1395w-102 and 42 CFR §§ 423.104(e) and (f). “Actuarially equivalent”

                    means that the plan’s benefits must be of a dollar value equivalent to that of the standard
                    benefit.
                        5 42 CFR § 423.315(d).
                        6 42 U.S.C. § 1395w-102(b) and 42 CFR § 423.104(d).
                        7 This amount includes a beneficiary’s deductible and coinsurance payments.
                    See 42 U.S.C. § 1395w-102(b)(4)(B)(i) and 42 CFR § 423-104(d)(5)(iii).
                       8 Beneficiaries contribute either cost sharing that is greater than or equal to a copayment
                    of $2 for generic or $5 for other drugs or coinsurance that is approximately 5 percent of
                    their total drug costs.
                        9 42 U.S.C. § 1395w-102(b)(4)(A) and CFR § 423.315(c).
                        10 42 CFR § 423.265(c).




 OEI-02-08-00460    M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   2
I N T R O D        U C T            I O N


                    “standardized bid,” which is an estimate of the average monthly
                    revenue that the sponsor needs to provide the basic benefit per
                    beneficiary.

                    This bid is based on the sponsor’s estimate of its anticipated drug costs,
                    as well as its administrative costs, which include nonpharmacy
                    expenses and expected profit. Expected profit, also known as the
                    gain/loss margin, is the additional revenue the sponsor requires above
                    the amount needed to cover drugs costs and other expenses. 11 CMS
                    requires sponsors to estimate their expected profits based on accepted
                    actuarial techniques. Sponsors also provide estimates for the
                    reinsurance subsidy and estimates for the low-income cost-sharing
                    subsidy with their bids.

                    CMS reviews the information in the sponsor’s bid and determines
                    whether to approve the final bid. 12 CMS uses the final bids to
                    determine beneficiary premiums and the monthly subsidy payments
                    that CMS pays to each sponsor.
                    Beneficiary Premiums
                    CMS calculates each plan’s beneficiary premium using the national
                    average monthly bid and the plan’s standardized bid. 13 The national
                    average monthly bid is a weighted average of all plans’ standardized
                    bids. First, CMS sets the base beneficiary premium, which is a
                    percentage of the national average monthly bid. 14 If a plan’s bid is
                    higher (or lower) than the national average monthly bid, then the
                    beneficiary’s premium will be higher (or lower) than the base premium
                    by the amount of the difference. For example, if the national average
                    monthly bid is equal to $100 and the base beneficiary premium is $26,
                    then a plan with a bid of $90 ($10 less than the national average
                    monthly bid) would have a beneficiary premium of $16.
                    Subsidy Payments
                    Throughout the year, CMS makes prospective payments to sponsors for
                    three subsidies based on their approved bids. These subsidies are:


                      11 CMS, “Instructions for Completing the Medicare Prescription Drug Plan Bid Form for
                    Contract Year 2007,” April 5, 2006, p. 29.
                        12 For the purposes of this report, we refer to the approved bids as bids.
                        13 42 CFR §§ 423.279 and 423.286.
                        14 Section 1860D-13(3) of the Social Security Act mandates how the base beneficiary
                    premium is calculated. In practice, it is equal to at least 25.5 percent of the national
                    average monthly bid.



 OEI-02-08-00460    M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   3
I N T R O D        U C T            I O N


                    (1) the direct subsidy, (2) the reinsurance subsidy, and (3) the
                    low-income cost-sharing subsidy. 15
                    Direct subsidy. The direct subsidy, together with the beneficiary
                    premium, is designed to cover the sponsor’s cost of providing the benefit
                    to each beneficiary. The direct subsidy is equal to the plan’s
                    standardized bid, adjusted for the health status of the beneficiary, 16
                    minus the beneficiary premiums. CMS makes monthly prospective
                    payments to the sponsor for the direct subsidy for each beneficiary
                    enrolled in the plan.
                    Reinsurance subsidy. The reinsurance subsidy covers the Federal
                    Government’s share of drug costs for beneficiaries who have reached
                    catastrophic coverage. CMS makes monthly prospective payments to
                    the sponsor based on the reinsurance estimate in the sponsor’s bid,
                    multiplied by the total number of beneficiaries enrolled in the plan. 17
                    Low-income cost-sharing subsidy. The low-income cost-sharing subsidy
                    covers the Federal Government’s portion of the cost-sharing payments
                    for certain low-income beneficiaries. CMS makes monthly prospective
                    payments to the sponsor based on the low-income cost-sharing estimate
                    in the sponsor’s bid, multiplied by the total number of low-income
                    beneficiaries enrolled in the plan.
                    Reconciliation
                    After the close of the plan year, CMS reconciles these prospective
                    payments with the actual costs incurred by the sponsors. CMS
                    calculates a reconciliation amount for the reinsurance subsidy and for
                    the low-income cost-sharing subsidy. CMS also finalizes the
                    direct subsidy payments based on updated information about the health
                    status of enrolled beneficiaries.




                        15 42 CFR § 423.315.
                        16 Adjustments are made according to the health status of the beneficiary. CMS assigns
                    a risk score to each enrolled beneficiary based on the individual’s health status and
                    demographic characteristics.
                        17 CMS offers sponsors an alternative payment approach for reinsurance, called the
                    Part D Reinsurance Payment Demonstration. It provides an incentive for Part D sponsors
                    to offer supplement drug coverage to Medicare beneficiaries. Medicare pays participating
                    sponsors a capitated reinsurance payment of which they may have to pay back a portion
                    during reconciliation. This payment is referred to as the budget neutrality payment. CMS,
                    “Updated Budget Neutrality Offsets for Reinsurance Payment Demonstration Plans in
                    2008,” April 26, 2007.



 OEI-02-08-00460    M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   4
I N T R O D        U C T            I O N


                    CMS uses data submitted by the sponsors to complete reconciliation.
                    Sponsors are required to submit prescription drug event records for all
                    covered drugs that are dispensed to enrollees throughout the year.
                    These records include cost data for all Part D-covered drugs. 18 Sponsors
                    are also required to report direct and indirect remuneration. This
                    includes any type of remuneration, such as discounts or rebates that
                    affect the actual costs of the drugs paid for by sponsors. 19 CMS uses all
                    of this information to determine the reconciliation payments that each
                    sponsor will owe to or receive from Medicare for the plan year.
                    Risk Sharing
                    Risk sharing requires the Federal Government to share in sponsors’
                    unexpected profits and losses. 20 The proportion of unexpected profits
                    that sponsors must share with Medicare and the proportion of
                    unexpected losses that sponsors are allowed to pass on to Medicare are
                    based on risk corridors mandated by the MMA.

                    To determine whether risk-sharing payments are required, CMS
                    compares the plan’s “target amount” to the plan’s allowable costs. The
                    target amount is the sum of the prospective direct subsidy payments
                    and the beneficiary premiums, reduced by the sponsor’s administrative
                    costs. The plan’s allowable risk-corridor costs are its actual covered
                    Part D drug costs incurred minus direct and indirect remuneration and
                    the reinsurance subsidy. The difference between the target amount and
                    the plan’s allowable risk-corridor costs is the unexpected profit or loss.

                    In 2006 and 2007, as shown in Chart 1, if a plan’s allowable costs are at
                    least 2.5 percent above or below the target amount, then a portion of
                    these profits or losses are subject to risk sharing. The risk sharing
                    associated with each of the corridors, as mandated by the MMA, is
                    described below:

                    •      No risk-sharing payments are made if a plan’s allowable costs are
                           within 2.5 percent above or below its target amount.

                    •      First risk corridor: If a plan’s allowable costs are between
                           2.5 percent and 5 percent above its target amount, then sponsors


                       18 CMS, “2006 Prescription Drug Event Training Participant Guide,” June 2007,
                    p. 43.
                      19 CMS, “Final Medicare Part D Direct and Indirect Remuneration Reporting
                    Requirements for 2007 Payment Reconciliation,” June 13, 2008.
                        20 42 U.S.C. § 1395w-115(e).




 OEI-02-08-00460    M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   5
I N T R O D        U C T            I O N


                           receive payments from Medicare to cover 75 percent of these losses.
                           Conversely, if a plan’s allowable costs are between 2.5 percent and
                           5 percent below its target amount, then the sponsor owes Medicare
                           75 percent of these profits.

                    •      Second risk corridor: If a plan’s allowable costs are more than
                           5 percent above its target amount, then the sponsor receives
                           payments from Medicare to cover 80 percent of these losses.
                           Conversely, if a plan’s allowable costs are more than 5 percent below
                           its target amount, then the sponsor owes Medicare 80 percent of
                           these profits.




                    Beginning in 2008, the risk corridor thresholds and the
                    risk-sharing percentages changed as mandated by the MMA. 21 These
                    changes decrease the percentage of sponsors’ unexpected profits that
                    sponsors have to share with Medicare. These changes also decrease the
                    percentage of sponsors’ losses that sponsors are permitted to shift to
                    Medicare. See Appendix B for a chart of the 2008–2011 statutorily
                    determined risk corridors.

                    Beginning in 2012, the Secretary of the Department of Health and
                    Human Services (the Secretary) is responsible for setting the risk
                    corridor thresholds. These thresholds may not be lower than the



                        21 42 U.S.C. § 1395w-115.




 OEI-02-08-00460    M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   6
I N T R O D        U C T            I O N


                    2008–2011 thresholds. The Secretary does not have the authority to
                    change the risk-sharing percentages.
                    Reopenings and Appeals
                    CMS may reopen and revise the reconciliation payment amounts at its
                    own initiative or at the request of a Part D sponsor. 22 It may do so for
                    any reason within 12 months from the date of the notice of final
                    determination to the sponsor or for “good cause” within 4 years of the
                    determination. 23 Although sponsors may request a reopening, these
                    requests are granted at the discretion of CMS. In addition, a Part D
                    sponsor may appeal its reconciliation payment amount if it believes that
                    CMS did not apply its payment methodology correctly. 24
                    Related Work
                    In November 2008, OIG released a report about CMS audits of Medicare
                    Part D bids. 25 The report found that 25 percent of all bid audits
                    identified at least one material finding, which is a significant issue that,
                    if corrected, would affect payments or beneficiary benefits. These
                    material findings most commonly focused on how sponsors estimated
                    their administrative costs, which include nonpharmacy expenses and
                    expected profit. Among other things, the report recommended that
                    CMS modify the bid audit process to hold plan sponsors more
                    accountable for material findings identified in the bid audits.
                    Specifically, CMS could consider seeking the authority to impose
                    sanctions against plan sponsors when material findings meet a specified
                    threshold regardless of the reason for the material finding. In addition,
                    CMS could consider seeking the authority to correct payments to
                    sponsors at the end of the plan year.




                      22 42 CFR § 423.346(a)(1). Also see CMS, “The Part D Reopening Process and the Part D
                    Appeals Process,” May 8, 2008.
                       23 “Good cause” includes new and material evidence, a clerical error in the computation
                    of payments, or evidence that an error was made. In addition, CMS may reopen final-
                    payment determinations at any time in instances of fraud or similar fault of the Part D
                    sponsor or any subcontractor of the Part D sponsor. See 42 CFR §423.350(b).
                        24 42 CFR §423.350(a).
                        25 Bid audits are in-depth reviews of the actual assumptions used to calculate the bid
                    amount. There are two types of bid-audit findings, material findings and observations. See
                    OIG, “Centers for Medicare & Medicaid Services Audits of Medicare Part D Bids”
                    (OEI-05-07-00560).



 OEI-02-08-00460    M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   7
I N T R O D        U C T            I O N



                    METHODOLOGY
                    This study was based primarily on data from three sources: (1) a review
                    of CMS’s data on reconciliation payments, (2) a review of data from
                    selected sponsors, and (3) a structured interview with CMS officials.
                    CMS Data on Reconciliation Payments
                    We requested and reviewed data from CMS on the reconciliation
                    payments that sponsors will owe to or receive from Medicare for 2007.
                    We analyzed these data to determine the amounts that sponsors will
                    owe or receive because of risk sharing and for the low-income
                    cost-sharing and reinsurance subsidies.
                    In addition, we requested and reviewed CMS’s data on reconciliation
                    payments for 2006. We analyzed these data to determine what amounts
                    CMS collected or paid to sponsors for 2006 and when these transactions
                    occurred.
                    Data from Selected Sponsors
                    We requested and reviewed information from 16 selected sponsors. We
                    used CMS’s enrollment data for July 2007 to select these sponsors. 26
                    These sponsors included the 10 sponsors with the highest enrollment in
                    stand-alone prescription drug plans and the 10 sponsors with the
                    highest enrollment in Medicare managed care plans that offer
                    prescription drug coverage. Four of these sponsors were in both groups.

                    We asked the selected sponsors for information on the reconciliation
                    payments that they expected to owe to or receive from Medicare for
                    2007. We also asked for information on the amounts they paid to or
                    received from Medicare for 2006. Lastly, we asked about the nature of
                    any outstanding issues that they had for 2006 or 2007. We received the
                    information from these sponsors in September 2008.
                    Structured Interview with CMS Officials
                    We conducted a structured interview with officials from CMS’s Medicare
                    Plan Payment Group within the Center for Drug and Health Plan
                    Choice. Our questions focused on the reconciliation payments for 2006
                    and 2007 and any outstanding issues that may affect these payments.
                    We conducted this interview in September 2008.


                        26CMS’s “Annual Enrollment Report by Plan: Medicare Advantage/Part D Contract and
                    Enrollment Data.” Available online at
                    http://www.cms.hhs.gov/MCRAdvPartDEnrolData/EP/list.asp#TopOfPage.
                    Accessed June 30, 2008.



 OEI-02-08-00460    M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   8
I N T R O D        U C T            I O N


                    Analysis of Sponsors’ Unexpected and Expected Profits
                    We calculated estimates of the unexpected profits and expected profits
                    that sponsors earned for 2007.
                    Unexpected profits. We calculated a conservative estimate of sponsors’
                    unexpected profits. Because we did not have sponsors’ actual target
                    amounts and costs, we could not calculate their actual unexpected
                    profits. Instead, we calculated an estimate of sponsors’ unexpected
                    profits based on their risk-sharing payments. To accomplish this, we
                    first determined the highest percentage of unexpected profits that a
                    sponsor could owe Medicare based on the 2007 risk-sharing
                    requirements. This amount is 77.875 percent. We then divided their
                    actual risk-sharing payments by 0.77875 to determine—at a
                    minimum—their unexpected profits. This estimate includes unexpected
                    profits only for the sponsors that had profits large enough to trigger risk
                    sharing, i.e., more than 2.5 percent of their target amounts. See
                    Appendix C for a more detailed description of this calculation.
                    Expected profits. We estimated sponsors’ expected profits based on each
                    sponsor’s 2007 bids. We obtained this information from the Health Plan
                    Management System. To estimate sponsors’ expected profits, we
                    reviewed the amounts that sponsors specified in the gain/loss margin
                    line item of their risk-adjusted bids. This amount represented the per
                    member per month amount per plan that they expected to earn as
                    profit. We multiplied this amount by each plan’s enrollment based on
                    CMS’s July 2007 enrollment data. We then multiplied this amount by
                    12 and aggregated the amounts by sponsor to calculate an estimate of
                    each sponsor’s expected profit for the year.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-02-08-00460    M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   9
  .. FINDINGS
           Sponsors owe a net total of $18 millon to                             For 2007,61 percent of sponsors
                                                                                 (154 of 251) owe a total of
                  Medicare for the 2007 Part 0 payment
                                                           reconcilation         $ 1.8 1 billon to Medicare. See
                                                                         Table 1. The remaining 39 percent
                                    of sponsors (97 of25i) wil receive money from Medicare, amounting to
                                    $ 1. 79 billion. Consequently, sponsors owe a net total of $ 18 milion to
                                    Medicare. This includes the amounts that sponsors wil owe or receive
                                    for risk sharing, the low-income cost-sharing subsidy, and the
                                    reinsurance subsidy.
                                    The net total amount sponsors owe for 2007 is significantly less than the
                                    net total of $4.4 bilion that sponsors owed for 2006. In addition, most
                                    sponsors owe less for 2007 than they did for 2006. Ofthe 221 sponsors
                                    that operated in both years, 56 percent owed Medicare in both years.
                                    Two-thirds of these sponsors owe Medicare less money for 2007 than
                                    they did for 2006.




Table 1: Total Reconciliation Payments by Number of Sponsors, 2007


                                                            Number     of   Percentage of       Total Reconcilation Payment
                                                             Sponsors           Sponsors                            Amounts



Sponsors That Owe Money to Medicare                                  154             61%                      $1.81 billon



Sponsors That Wil Receive Money
From Medicare                                                         97            39%                      ( $1.79 billon)


         Net Total                                                   251           100%                        $18 millon*

. Difference because of rounding.
Source: OIG analysis of eMS's data on reconcilation payments, 2008.


                                    Sponsors owe a net total of $600 milion because of unexpected profits or
                                    losses that trigger risk sharing
                                    For 2007,71 percent (179 of  the 251) ofthe sponsors made unexpected
                                    profits large enough to trigger risk sharing. In total, they owe Medicare
                                    $795 milion. See Table 2 below and Table D- 1 in Appendix D. Of this
                                    amount, one sponsor owes $192 milion while five other sponsors owe
                                    more than $40 milion each.


         OEI-02-08.00460            MEDICARE PART 0 RECONCILIATION PAYMENTS FOR 2006 AND 2007                             10
                         This is important because it means that Medicare’s monthly prospective
                         payments to sponsors and beneficiaries’ premiums were too high. When
                         sponsors owe money to Medicare for risk sharing, it means that they
                         overestimated the cost of providing the benefit in their bids. When bids
                         are too high, Medicare payments and premiums are higher than
                         necessary. Medicare recoups a portion of these higher payments
                         because of risk-sharing requirements. However, beneficiaries do not
                         directly recoup any of the money that they paid in higher premiums.




        Table 2: Total Reconciliation Payment by Type of Subsidy, 2007
                                                                              Risk Sharing            Low-Income Subsidy            Reinsurance
                                                                                                                                         Subsidy


        Amount That Sponsors Owe to
        Medicare*                                                              $795 million                        $826 million     $657 million


        Amount That Sponsors Will Receive
        From Medicare                                                      ($195 million)                        ($1.23 billion)   ($843 million)



                Net Total                                                     $600 million                       ($406 million)    ($186 million)


        *In addition, 31 of the sponsors owe Medicare a total of $11 million for budget neutrality payments.
        Source: OIG analysis of CMS’s data on reconciliation payments, 2008.




                         In contrast, 24 percent (59 of 251) of the sponsors had losses that were
                         large enough to trigger risk sharing. These sponsors will receive a total
                         of $195 million, with four sponsors each receiving over $14 million.
                         When bids are too low, Medicare payments and premiums are lower
                         than necessary. Sponsors recoup a portion of these lower payments
                         from Medicare, but not from beneficiaries. The remaining 5 percent of
                         sponsors (13 of 251) had minimal gains or losses, so no risk-sharing
                         payments are required.

                         It is important to note that changes to the risk-sharing requirements for
                         2008 will decrease the portion of sponsors’ unexpected profits that the
                         Federal Government will receive. The changes will also decrease the
                         portion of sponsors’ unexpected losses that the Federal Government will
                         share.




OEI-02-08-00460          M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007                           11
F   I N D I N G        S

                      Sponsors will receive a net total of $406 million for the low-income
                      cost-sharing subsidy
                      The low-income cost-sharing subsidy payments are made on behalf of
                      certain beneficiaries based on their income and assets. Medicare
                      reimburses sponsors for their total costs for this subsidy. 27
                      In total, 46 percent (116 of 251) of sponsors overestimated the cost of
                      providing this subsidy to low-income beneficiaries in their bids and
                      received prospective payments for this subsidy that were greater than
                      their actual costs. See Table D-2 in Appendix D. As a result, these
                      sponsors owe Medicare a total of $826 million for the low-income cost
                      sharing subsidy. About 35 percent of this amount, totaling
                      $290 million, is owed by one sponsor. Five other sponsors owe more
                      than $40 million each.

                      Conversely, 53 percent (134 of 251) of sponsors underestimated the cost
                      of providing this subsidy to low-income beneficiaries in their bids.
                      These sponsors will receive a total of $1.2 billion from Medicare. One
                      sponsor will receive about half of this amount ($593 million), while five
                      other sponsors will receive more than $40 million each. For the
                      remaining sponsor, no funds are owed by either Medicare or the sponsor
                      for the low-income cost-sharing subsidy. 28
                      Sponsors will receive a net total of $186 million for the reinsurance subsidy
                      The reinsurance subsidy covers the Federal Government’s portion of
                      drug costs for beneficiaries who reach catastrophic coverage.

                      In total, 59 percent (147 of 251) of sponsors overestimated their costs for
                      the reinsurance subsidy in their bids. See Table D-3 in Appendix D.
                      These sponsors owe Medicare a total of $657 million. Of this amount,
                      one sponsor owes $149 million, while seven other sponsors owe more
                      than $25 million each.

                      Conversely, 39 percent (98 of 251) of sponsors underestimated their
                      reinsurance costs in their bids. These sponsors will receive a total of
                      $843 million from Medicare. Of this amount, one sponsor will receive
                      $167 million, while another five sponsors will receive over $50 million



                          27 For the low-income cost-sharing subsidy and the reinsurance subsidy, Medicare

                      reconciles the prospective payments that sponsors received from Medicare for the subsidy
                      with the actual amounts that sponsors paid for the subsidy.
                        28 This sponsor did not receive any prospective payments for the low-income cost-sharing
                      subsidy for 2007.



    OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   12
 F   I N D I N G        S


                       each. For the remaining six sponsors, no funds are owed by either
                       Medicare or the sponsor for the reinsurance subsidy.

                       CMS officials explained that a few sponsors significantly
                       underestimated the proportion of their beneficiaries who reached
                       catastrophic coverage. Because Medicare makes prospective payments
                       for the reinsurance subsidy based on an estimate of all enrollees, as
                       opposed to the actual number of enrollees who reach catastrophic
                       coverage, these sponsors’ monthly payments were substantially less
                       than their costs. In fact, CMS officials reported that they made interim
                       payments to two of these sponsors to cover their additional costs.


Sponsors continue to make large unexpected
                                                          The majority of sponsors continue to
profits in addition to the expected profits they
                                                          make unexpected profits large
                           included in their bids
                                                          enough to trigger risk sharing.
                       These unexpected profits are in addition to the expected profits included
                       in sponsors’ bids.
                       As noted earlier, 71 percent (179 of the 251) of the sponsors made
                       unexpected profits that triggered risk sharing. Based on our
                       calculations, these 179 sponsors made at least $1.02 billion in
                       unexpected profits for 2007. 29 This amounts to approximately
                       $3.89 a month for each beneficiary enrolled in these sponsors’ plans.
                       Sponsors owe a portion of these unexpected profits to Medicare based on
                       the risk-sharing requirements.
                       In addition, sponsors included an estimated $1.07 billion in expected profits
                       in their bids
                       In addition to receiving the unexpected profits, sponsors included
                       expected profits for 2007. More specifically, sponsors included a net
                       total of approximately $1.07 billion of expected profits in their bids for
                       2007. This amounted to approximately $3.70 a month for each
                       beneficiary enrolled in the Part D program.

                       Expected profits are not subject to risk sharing; therefore, sponsors keep
                       all of these profits in addition to any unexpected profits they retain after
                       risk sharing. These expected profits may also offset any losses that
                       sponsors have after risk sharing.



                          29 Because this is a conservative estimate, sponsors’ unexpected profits for 2007 are
                       likely higher.



     OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   13
F    I N D I N G       S



    CMS collected almost all of the funds that         Sponsors owed a net total of
        sponsors owed to Medicare for 2006             $4.4 billion for the 2006 payment
                                                       reconciliation. According to our
                      previous report, 180 sponsors owed money to Medicare, while
                      44 sponsors received money from Medicare for 2006.
                      CMS collected a net total of $4.37 billion that sponsors owed for 2006
                      CMS collected most of the funds that sponsors owed by decreasing their
                      monthly prospective payments for November and December 2007. In
                      some cases, it took several months to collect the entire amount owed
                      from each sponsor. At the same time, CMS paid most of the funds owed
                      to sponsors for 2006 by increasing these sponsors’ monthly prospective
                      payments for November and December 2007. Specifically, CMS
                      collected a net total of approximately $2.9 billion in November 2007 and
                      $956 million in December 2007. CMS collected an additional
                      $500 million between January and May 2008 for a net total of
                      $4.37 billion.
                      CMS has not collected $14 million owed for 2006
                      According to CMS’s data, CMS has not collected money owed from five
                      sponsors for 2006. These sponsors owed between $15,000 and
                      $7.9 million each. Two of these sponsors still contract with CMS as Part
                      D sponsors. One has stopped participating in the Part D program. The
                      remaining two sponsors are in receivership. CMS officials reported that
                      CMS has filed claims with the bankruptcy courts for the 2006
                      reconciliation payment amounts for these two sponsors.
                      As a result of the reopening of the 2006 reconciliation, CMS paid sponsors a
                      net total of $315 million
                      In December 2007, CMS reopened the 2006 payment reconciliation. As
                      a result, Medicare owed sponsors a net total of $315 million and
                      adjusted their June 2008 monthly prospective payments accordingly.
                      After CMS completed the reopening, it announced that it considered the
                      2006 reconciliation closed. 30
                      At the same time, half of the 16 selected sponsors that we received
                      information from reported that they have requested or were planning to
                      request an additional reopening of the 2006 reconciliation. Most
                      commonly, sponsors reported that they were still resolving beneficiary


                        30 CMS Memorandum, “Reopenings of the Final Part D Payment Reconciliation for
                      2006,” May 8, 2008.



    OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   14
F   I N D I N G        S


                      enrollment issues and receiving and paying claims for 2006. They
                      reported that most frequently these claims were from States. For
                      example, State Pharmacy Assistance Programs (SPAP) sometimes pay
                      for Part D claims that should have been paid for by sponsors. 31 CMS
                      requires sponsors to reconcile with other payers, including SPAPs. 32
                      Although CMS imposed a deadline on sponsors to submit claims for
                      payment reconciliation, the deadlines did not apply to SPAPs, which
                      have 3 years to submit these claims to sponsors based on State laws. 33
                      A number of the selected sponsors reported that they may have similar
                      issues with these claims for 2007.




                          31 SPAPs are State programs that provide assistance for prescription drugs to senior

                      citizens and the disabled who have lower incomes but do not qualify for Medicaid.
                          32 42 CFR § 423.464. See also, CMS, “Prescription Drug Benefit Manual”, ch. 14.
                          33 Pursuant to the Social Security Act, § 1902(a)(25)(I)(iv), States must have laws
                      requiring health insurers, as a condition of doing business in the State, not to deny claims
                      from the State solely on the basis of the date of submission, as long as the claim is
                      submitted with 3 years of the date of service.



    OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   15
Δ   R E C O M M E N D A T I O N S




                  For 2007, 61 percent of sponsors owe a total of $1.81 billion to
                  Medicare, while the remaining 39 percent of sponsors will receive
                  $1.79 billion from Medicare. Consequently, sponsors owe a net total
                  of $18 million to Medicare for 2007, which is significantly less than
                  the net total of $4.4 billion that sponsors owed for 2006.

                  Despite this improvement, sponsors continue to submit inaccurate
                  bids and make large profits. For 2007, many sponsors owe money to
                  Medicare for risk sharing. These sponsors overestimated the costs of
                  providing the benefit in their bids. As a result, Medicare monthly
                  prospective payments and beneficiary premiums were higher than
                  necessary. Medicare recoups a portion of these higher payments
                  because of risk-sharing requirements. However, beneficiaries do not
                  directly recoup any of the money that they paid in higher premiums.
                  In addition, sponsors inaccurately estimated their costs for the
                  low-income cost-sharing subsidy and the reinsurance subsidy in their
                  bids.

                  Further, sponsors continue to make large unexpected profits in addition
                  to the expected profits included in their bids. We estimated that
                  sponsors’ unexpected profits were at least $1.02 billion, a portion of
                  which they owe to Medicare because of the risk-sharing requirements.
                  In addition, sponsors included approximately $1.07 billion of expected
                  profits in their bids for 2007.
                  Finally, we found that CMS collected most of the $4.4 billion owed for
                  2006 in November and December 2007. However, CMS has not
                  collected money owed from five sponsors totaling $14 million.

                  Based on these findings, we recommend that CMS:
                  Ensure That Sponsors’ Bids Accurately Reflect the Cost of Providing the
                  Benefit to Medicare Beneficiaries
                  CMS should ensure that sponsors’ bids more accurately reflect their
                  costs of providing the benefit. CMS should use available data from prior
                  plan years to assist in the review of future bid submissions. CMS
                  should also conduct additional checks on bids in which the sponsors
                  owed or received large amounts for reconciliation.




OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   16
R   E C O        M M E N D A T                        I O N               S


                      Hold Sponsors More Accountable for Inaccuracies in the Bids
                      As we recommended in a previous report, CMS should modify its bid
                      audit process to hold sponsors more accountable for material findings
                      identified in bid audits. Specifically, CMS could seek the authority to
                      impose sanctions against plan sponsors when bid audits have material
                      findings that meet a specified threshold regardless of the reason for the
                      material finding. CMS could also consider seeking the authority to
                      correct payments to plan sponsors at the end of the plan year.
                      Determine Whether Changes to the Risk Corridors Are Appropriate
                      CMS should analyze all relevant data to determine whether it is
                      appropriate to seek legislative changes to the risk corridors and
                      risk-sharing percentages. The changes to risk sharing that begin with
                      the 2008 reconciliation will decrease the Federal Government’s share of
                      sponsors’ profits and increase the amount that sponsors retain.
                      Therefore, if sponsors continue to make large unexpected profits in 2008
                      and beyond, they will return a smaller percentage to the Federal
                      Government.
                      Determine Whether Alternative Methodologies Would Better Align Payments
                      with Sponsors’ Costs for the Low-Income Cost-Sharing and Reinsurance
                      Subsidies
                      CMS should analyze all relevant data to determine whether alternative
                      methodologies to estimate and pay sponsors for the low-come
                      cost-sharing and reinsurance subsidies would better align payments
                      with costs. For instance, CMS should determine whether requiring
                      sponsors to base their bid estimates for reinsurance on the number of
                      beneficiaries who they anticipate will reach catastrophic coverage would
                      better align payments with costs for this subsidy.
                      Follow Up With Sponsors That Still Owe Funds for 2006
                      CMS should follow up with the three sponsors that owe funds for 2006
                      and are not in receivership. CMS collected funds from the other
                      sponsors by adjusting their monthly prospective payments. If this is
                      not possible for these sponsors, CMS should seek alternative methods
                      for collecting funds from these sponsors.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred or agreed with three of our recommendations and did
                      not state whether it concurred with the other two recommendations. In
                      response to our first recommendation, CMS concurred and stated that it

    OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   17
R   E C O        M M E N D A T                        I O N               S


                      has already incorporated plan-level experience in its current bid-desk
                      review.

                      In response to our second recommendation, CMS did not indicate
                      whether it concurred. CMS stated that it has the authority to ensure
                      Part D sponsors’ compliance with the operational requirements of the
                      Part D program. It also stated that to the extent that the bid audit
                      findings reflect a sponsor’s substantial failure to comply with program
                      requirements, including those related to annual bid submissions, CMS
                      will pursue compliance (e.g., request corrective action plans) or
                      enforcement (e.g., sanctions or contract termination) actions against
                      those sponsors. CMS further stated that it does not have the authority
                      to adjust plan sponsors’ bid amounts, payments to the plan sponsors, or
                      beneficiary premiums once a bid has been accepted. Lastly, CMS noted
                      that it has accurately followed the statute that provides a framework for
                      how discrepancies between plan sponsors’ bids and costs should be
                      reconciled.

                      We encourage CMS to use its current authority to hold sponsors more
                      accountable for inaccuracies in their bids. However, we note that CMS’s
                      current authority may not allow it to impose sanctions in all situations
                      that lead to inaccuracies in the bids. Further, we wish to clarify that as
                      part of this recommendation, CMS could consider seeking the authority
                      to enable it to correct payments to sponsors using methods other than
                      adjusting their bids and reconciliation. These corrections would most
                      likely occur at the end of the plan year and be coordinated with
                      reconciliation.

                      In response to our third recommendation, CMS did not indicate whether
                      it concurred. However, CMS stated that it has reviewed the statutory
                      risk corridors and risk-sharing percentages and does not believe that
                      changes would be appropriate. CMS stated that it believes that the
                      widening of the risk corridors is appropriate given that plans now have
                      sufficient actual data on Part D costs to develop more accurate bids.
                      Further, CMS noted that it estimates that, because plans’ bids dropped
                      significantly in 2008, the Government, on average, will owe plans for
                      the 2008 reconciliation.

                      We note that other factors affect risk-sharing payments, such as drug
                      costs and rebates. Therefore, we remain concerned that sponsors may
                      continue to make large profits in 2008 and beyond and that the
                      Government will share less of these profits under the current risk
                      corridors and risk-sharing percentages.

    OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   18
R   E C O        M M E N D A T                        I O N               S




                      In response to our fourth recommendation, CMS agreed and stated that
                      it is currently evaluating changing the method for paying the
                      low-income cost-sharing subsidy. Specifically, it is reviewing the
                      possibility of reconciling the low-income cost-sharing subsidy more
                      frequently than on an annual basis.

                      In response to our fifth recommendation, CMS agreed and stated that
                      follow up is important. CMS noted that it has since collected amounts
                      owed from all sponsors that are solvent and that the remaining sponsors
                      owe minimal amounts. CMS further stated that it has filed the
                      appropriate documents with the applicable bankruptcy courts.

                      In response to other comments, we made changes to the final report as
                      appropriate.

                      We ask that in its final management decision, CMS more clearly
                      indicates whether it concurs with our second and third
                      recommendations and what steps, if any, it will take to implement
                      them. The full text of CMS’s comments is provided in Appendix E.




    OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   19
ΔA   A PP EP NE D N I DX I~ XA ~ A
     P




 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   20
Δ      A P P E N D I X ~ B




OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   21
A   P   P E N D       I X ~           C
Δ       A P P E N D
                  I DI X
                       I X~ ~C C

                      Calculation of the Estimated Amount of Unexpected Profits
                      Unexpected profit is the difference between the target amount and the
                      plan’s allowable costs. To calculate the minimum amount of unexpected
                      profits earned by Part D sponsors, we calculated the percentage that a
                      sponsor would owe if it had the largest possible proportion of its
                      unexpected profits within the second risk corridor (in which plans pay
                      80 percent of their unexpected profits to Medicare). This occurs in the
                      unlikely event that the plan’s allowable costs are $0 and, therefore,
                      100 percent of the target amount is unexpected profits.




                      In this situation, the plan is required to pay Medicare 77.875 percent of
                      unexpected profits. As shown in Chart 1, this percentage is calculated
                      by adding the percentages owed in each of the three corridors:

                      (0% x 2.5%) + (75% x 2.5%) + (80% x 95%) = 77.875% of unexpected
                      profits.

                      Knowing that a plan would owe Medicare—at most—77.875 percent of
                      its unexpected profits, we calculated an estimate of the minimum
                      amount of unexpected profits for the 179 sponsors that owe Medicare
                      money for 2007 because of risk sharing.

                      According to CMS, the 179 sponsors owe Medicare a total of
                      $794,561,159 as a result of risk-sharing requirements for 2007.
                      Because we know that this amount represents—at most—77.875
                      percent of the plans’ total unexpected profits, we calculated the
                      minimum unexpected profits to be: $794,561,1 59 = $1,020,368 ,767.
                                                              0.77875


    OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   22
  Δ            A P P E N D I X ~ D



        Reconciliation Amounts Owed or Received in 2007, Per Subsidy




Table D-1: Risk-Sharing Payments, 2007

                                                                         Number of                             Percentage of               Total Risk-Sharing
                                                                          Sponsors                                    Sponsors                      Amounts



Sponsors That Owe Money to Medicare                                                   179                                     71%                 $795 million



Sponsors That Will Receive Money                                                        59                                    24%                ($195 million)


Sponsors That Are Not Subject to Risk
Sharing                                                                                 13                                     5%                            $0



     Total                                                                            251                                    100%                 $600 million


Source: Office of Inspector General (OIG) analysis of the Centers for Medicare & Medicaid Services’ (CMS) data on reconciliation payments, 2008.




Table D-2: Low-Income Cost-Sharing Subsidy Amounts, 2007

                                                                                       Number of                      Percentage of          Total Low-Income
                                                                                         Sponsors                           Sponsors      Cost-Sharing Subsidy
                                                                                                                                                      Amounts



Sponsors That Owe Money to Medicare                                                               116                              46%            $826 million



Sponsors That Will Receive Money From Medicare                                                    134                              53%           ($1.23 billion)


Sponsors That Neither Owe Money to, Nor Will
Receive Money From, Medicare                                                                         1                             0.4%                       $0



     Total                                                                                        251                              100%          ($406 million)


Source: OIG analysis of CMS’s data on reconciliation payments, 2008.




         OEI-02-08-00460             M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007                             23
     A    P    P E N D            I X ~             D




Table D-3: Reinsurance Subsidy Payments, 2007

                                                                                 Number of                     Percentage of       Total Reinsurance
                                                                                   Sponsors                           Sponsors     Subsidy Amounts


Sponsors That Owe Money to Medicare                                                         147                              59%        $657 million


Sponsors That Will Receive Money From
Medicare                                                                                     98                              39%       ($843 million)


Sponsors That Neither Owe Money to, Nor Will
Receive Money From, Medicare                                                                   6                              2%                  $0


     Total                                                                                  251                             100%       ($186 million)


Source: OIG analysis of CMS’s data on reconciliation payments, 2008.




         OEI-02-08-00460            M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007                   24
..       A P PEN D                                     x          E


 Agency Comments




           \,f-l-
           i! ;n
            '.
           , ....".4.."'0.....
                                     DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for MedIcare & Medicaid Services


                                                                                                              AdmÎ1,istrrit()r
                                                                                                              Washington. DC 20201



                                                                                                                                     ~,k'
                                                                                                                                     (::~,
                                                                                                                                                   -Cl

                                 DATE:             ~UL J 1_                                                             G'
                                                                                                                             ''-
                                                                                                                              ,."'    r
                                                                                                                                      (~~
                                                                                                                                                   \.tl
                                                                                                                                                     .,
                                                                                                                                                    \ .1
                                 TO:             Daniel R. Levinson
                                                                                                                         ;.:
                                                                                                                         f":
                                                                                                                                       _J             ~~
                                                                                                                          .,'           '4'
                                                 Inspector General                                                        :P~;
                                                                                                                          l-'
                                                                                                                                        :i                :\
                                                                                                                                            N.            J
                                 FROM:           Charlene Frizzera        /S/                                                                ~'-
                                                 Acting Administrator

                                 SUBJECT:        Office ofInspector General (OIG) Draft Report: "Medicare Part D Reconciliation
                                                 Payments for 2006 and 2007" (OEI-02-08-00460)


                                 Than you for the opportunity to review and comment on OIG's drall report entitled "Medicare
                                 Pai1 D Reconciliation Payments for 2006 and 2007." OIG studied the 2007 Parl D reconciliation
                                 focusing on amounts due to, and owed from, the Centers for Medicare & Medicaid Serviccs
                                 (CMS), OIG also reviewed the status of     2006 reconciliation payments, which it noted that only
                                 $14milJon of    the original $4.4 bilion is stil outstanding.


                                 We have concerns with the reports depiction of Part D sponsors bids as being inaccurate. Plan
                                 sponsors submit bids to CMS prior to a plan year. CMS reviews and, when appropriate,
                                 negotiates with plan sponsors to ensure that bids are submitted per CMS instructions and that
                                 bids are reasonable. What is ultimately owed to, or from, plan sponsors afer the plan year closcs
                                 depends upon the plan sponsor's experience during the year. Congress created the end-of-year
                                 reconciliation process specifically because it recognized the uncertainties involved in the
                                 prospective bidding process. This is discussed further below.

                                 We have addressed the OIG recommendations below.

                                 OIG Recommendation

                                 The CMS should ensure that sponsors' bids accurately reflect the cost of providing the benefit to
                                 Medicare beneficiaries.

                                 eMS ResDonse

                                 The eMS concurs with lhis recommendation. In fact, CMS already does this in its review of
                                 Pait D bids, by incorporating plan level experience that has been submitted to eMS for
                                 reconciliation ofpriOl years into the current bid desk review. OIG studied the reconciliations
                                 from 2006 and 2007, the first 2 years of  the Part D program, a period when plan sponsors faced
                                 many unknown faclors without actual program data to l'cly upon to develop bids. Bids were




     OEI.02.0S-00460                    MEOICARE PART 0 RECONCILIATION PAYMENTS FOR 2006 AND 2007                                                              25
A P P E N D        I X            ~          E




 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   26
A P P E N D        I X            ~          E




 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   27
A P P E N D        I X            ~          E




 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   28
A P P E N D        I X ~ E
Δ    A C K N O W L E G M E N T S

                   This report was prepared under the direction of Jodi Nudelman,
                   Regional Inspector General for Evaluation and Inspections in the New
                   York regional office, and Meridith Seife, Deputy Regional Inspector
                   General.

                   Miriam Anderson served as the team leader for this study. Staff from
                   the Office of Audit Services who contributed to this report include
                   Jeffrey Cohen and Amanda Fleck. Other principal Office of Evaluation
                   and Inspections staff who contributed to this report include
                   Levita Lowe, David Rudich, Megan Ruhnke, and Rita Wurm.




 OEI-02-08-00460   M E D I C A R E PA R T D R E C O N C I L I AT I O N PAY M E N T S   FOR   2006   AND   2007   29
